UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Office of the Secretary

May 21, 2001

John F. Dickey, Esq.

E.I. du Pont de Nemours and Company
Barley Mill Plaza 25/2218

P.O. Box 80025

Wilmington, DE 19880-0025

Re: Petition of DuPont for a new generic fiber name and definition under the
Rules and Regulations Under the Textile Fiber Products Identification Act,
16 C.F.R. Part 303.

Dear Mr. Dickey:

Pursuant to Rule 8 of the Rules and Regulations Under the Textile Fiber Products
Identification Act, 16 C.F.R. § 303.8, the Commission has assigned the designation “DP 0002” to
DuPont's elastic fiber for temporary use until a final determination can be made as to the merits
of the application.

The assignment of this temporary designation should not be construed as indicating that
the Commission will either grant or deny the application or that the Commission has determined

the application to be complete.

By direction of the Commission.

Donald S. Clark
Secretary
